           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  SOCIAL SECURITY NUMBER MISUSE
          IN THE SERVICE,
         RESTAURANT, AND
     AGRICULTURE INDUSTRIES

   APRIL 2005      A-08-05-25023




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM


Date:   April 29, 2005                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Social Security Number Misuse in the Service, Restaurant, and Agriculture Industries
        (A-08-05-25023)


        OBJECTIVE

        Our objective was to assess the potential for misuse of Social Security numbers (SSN)
        in the service, restaurant, and agriculture industries.1

        BACKGROUND
        Because SSA calculates future benefit payments based on the earnings an individual
        has accumulated over his or her lifetime, accuracy in recording those earnings is critical.
        SSA’s ability to do so, however, greatly depends on employers and employees correctly
        reporting names and SSNs on Forms W-2, Wage and Tax Statement. SSA uses
        automated edits to match employees’ names and SSNs with Agency records to ensure
        earnings are properly credited to the Master Earnings File. SSA places wage items that
        fail to match name and SSN records into its Earnings Suspense File (ESF).2 As of
        October 2004, the ESF had accumulated about $463 billion in wages and 246 million
        wage items for Tax Years (TY) 1937 through 2002.3

        In January 2001, we issued a Management Advisory Report, Obstacles to Reducing
        Social Security Number Misuse in the Agriculture Industry (A-08-99-41004), in which we
        assessed the potential for SSN misuse in the agriculture industry. The wage
        information in the previous report covered TYs 1996 through 1998. In the 2001 report,
        we determined that agriculture employers submitted thousands of wage items for which
        the employee’s name and/or SSN did not match SSA records, resulting in millions of

        1
          For purposes of this review, we use the term “SSN misuse” throughout this report to refer to situations in
        which individuals used SSNs not issued to them by SSA to obtain employment. Furthermore, we define
        the service industry as being comprised of temporary labor and cleaning services employers.
        2
          A wage item is an individual employee report prepared by employers on a Form W-2 after the close of
        the calendar year that shows wages paid and taxes withheld during the prior calendar year.
        3
            TY 2002 data was not available when we began our analysis of ESF data for TYs 1999 through 2001.
Page 2 - The Commissioner


dollars in suspended wages. Because of continuing congressional interest in the ESF
and employers who continually have wage items going into the ESF, we elected to
conduct a review that not only addressed employers in the agriculture4 industry but
included employers in the service and restaurant industries as well.5

To accomplish our objective, we obtained ESF data for TYs 1999 through 2001. This
data represents the most complete tax data available at the start of our audit, given the
inherent lag in posting annual wage information. We then identified the 100 employers
in each of the service, restaurant, and agriculture industries who contributed the most
wage items to the ESF for the 3-year period.6 For the 300 employers selected, we
analyzed ESF data to identify reporting irregularities, such as SSNs that SSA either had
never issued or assigned to another individual. We also contacted selected employers
and industry associations to obtain information on their experiences with employees
who provided names and/or SSNs that did not match SSA’s records. See Appendix B
for additional information on our scope and methodology.

RESULTS OF REVIEW
Based on our analysis of ESF data and interviews with employers and industry
associations, we believe SSN misuse in the service, restaurant, and agriculture
industries is widespread. For example, for TYs 1999 through 2001, the 300 employers
we reviewed submitted over 2.7 million wage items for which the employee’s name
and/or SSN did not match SSA records. These wage items represented $9.6 billion in
suspended earnings over the 3-year period. In total, 14 percent of the wage items
submitted by these 300 employers did not match names/SSNs contained in SSA files.
For the 100 agriculture employers, about 48 percent of the wage items they submitted
failed to match SSA records.

We identified various types of reporting irregularities, such as invalid, unassigned and
duplicate SSNs and SSNs belonging to young children and deceased individuals. While
we recognize there are legitimate reasons why a worker’s name and SSN may not
match SSA files, such as a legal name change, we believe the magnitude of incorrect
wage reporting is indicative of SSN misuse. Employers and industry association
representatives acknowledged that unauthorized noncitizens contribute to SSN misuse.7

4
  In our January 2001 report, we reviewed ESF data for 20 agriculture employers in California and Florida
for TYs 1996 through 1998. In the current audit, we focused on the 100 agriculture employers nationwide
who contributed the most wage items to the ESF for TYs 1999 through 2001.
5
 SSA statistics show these three industries account for approximately one-half of all wage items in the
ESF.
6
  While we recognize that some employers may report wages under more than one employer
identification number, we did not combine ESF wage items posted under multiple employer identification
numbers to determine the 100 employers in each industry.
7
  We use the term “unauthorized noncitizens” when referring to individuals who do not have permission
from DHS to work in the United States but who are working—regardless of whether they entered the
country legally or illegally.
Page 3 - The Commissioner



To its credit, SSA recognizes the impact SSN misuse has on its programs, including
growth of the ESF, and has taken steps to reduce such activity. However, SSA’s ability
to combat SSN misuse is hampered because employers do not routinely use the
Agency’s Employee Verification Service (EVS) and we are not aware of instances
where IRS has imposed existing civil penalties against employers who submit
inaccurate wage reports. Furthermore, privacy and disclosure issues (that is, the
inability to routinely share information regarding employers who filed large numbers or
percentages of wage statements with inaccurate SSNs) have limited collaborative
efforts between SSA and DHS.

SSN MISUSE IN THE SERVICE, RESTAURANT, AND AGRICULTURE INDUSTRIES
IS WIDESPREAD

Over 2.7 million (14 percent) of the 19.2 million wage items submitted by the
300 employers we reviewed did not match SSA records and were posted to the ESF, as
shown in Table 1.

       Table 1: Percentage of Wage Items Posted to the ESF for TYs 1999-2001

                                                    Percent of                       Range of
       Industry      Number of       Number of         W-2s          Median8         Employer
                       W-2s          ESF Items      Posted to       Employer       Percentages
                     Submitted                       the ESF       Percentage      Low    High

       Service        8,920,746       1,132,070         13              30           1        93

     Restaurant       9,061,420       1,026,620         11              15           2        70

      Agriculture     1,264,716        602,075          48              68           3        85


        Totals       19,246,882       2,760,765         14              32           1        93


The percentage of wage items posted to the ESF over the 3-year period ranged from a
low of 11 percent for the restaurant industry to a high of about 48 percent for the
agriculture industry. Moreover, 263 (88 percent) of the 300 employers experienced
increases in the percentage of suspended wage items from TYs 1999 through 2001.9
The 37 employers who did not experience a percentage increase still contributed over
244,000 wage items and over $793 million to the ESF over the 3-year period.


8
 We calculated the median percentage for each industry by arranging the individual employer
percentages in numerical order and averaging the two middle employers’ percentages.
9
  An increase or decrease in suspended wage items for a particular employer could occur for a number of
reasons, including a change in the number of employees or even the volume of items moved from the
ESF to wage earners’ records.
Page 4 - The Commissioner


Types of Reporting Irregularities

During our review of ESF data for these 300 employers, we identified various types of
reporting irregularities that we believe indicate SSN misuse. These irregularities include
large numbers of invalid, unassigned, and duplicate SSNs and SSNs belonging to
young children and deceased individuals (see Appendix C).10 Our analysis showed the
following.

•    SSA had never assigned about 680,000 (25 percent) of the reported SSNs. Over
     48,000 of these SSNs were not valid because they did not fall within the ranges of
     numbers SSA has authorized for use.

•    The remaining 2 million (75 percent) SSNs were numbers SSA had assigned to
     someone else. About 9,500 of these SSNs belonged to young children, and about
     5,400 belonged to deceased individuals.

Additional analysis of the ESF data showed that these employers submitted over
16,000 duplicate SSNs during each year of our audit period—meaning multiple
employees used the same SSN to work for one employer. One restaurant employer
submitted over 4,100 duplicate SSNs in TY 2001. That same year, an agriculture
employer submitted over 900 duplicate SSNs, and an employer in the service industry
submitted over 2,100.

While we recognize there are legitimate reasons why a worker’s name and SSN may
not match SSA’s files, such as a name change, we believe the nature and extent of the
reporting irregularities discussed above, and shown in Appendix C, indicate SSN
misuse.

Unauthorized Noncitizen Workforce Is a Contributor to SSN Misuse

Several of the employers and industry associations we contacted acknowledged that
unauthorized noncitizens contribute to SSN misuse. For example, one employer told us
his restaurants and many others would be forced to close if they did not hire
unauthorized noncitizens. A temporary labor service employer acknowledged that
some of his former employees were unauthorized noncitizens who used invalid,
unassigned, and deceased individuals’ SSNs. Furthermore, the president of a large
growers’ association stated that farm labor contractors employ a large number of
unauthorized noncitizens.

During our previous review of SSN misuse in the agriculture industry, SSA senior staff
acknowledged the agriculture industry is the largest contributor to the ESF, and the
intentional misuse of SSNs by unauthorized noncitizens has been a major contributor to


10
   We reviewed the alerts for deceased individuals in our August 2002 audit Effectiveness of the Social
Security Administration's Earnings After Death Process (A-03-01-11035). We found both indications of
SSN misuse as well as opportunities for SSA to educate employers on the proper reporting of wages
after an employee’s death.
Page 5 - The Commissioner


the ESF’s growth.11 SSA senior staff told us employers hire unauthorized workers
because there is nothing to prevent them from doing so. That is, employers know SSA
has no legal authority to levy fines and penalties, and they are not concerned about
potential IRS sanctions.

In a March 2001 report, SSA noted that many suspended wage items involve the
agriculture industry, which has transient employees who may not have work
authorizations from DHS.12 Other high turnover industries, such as restaurants and
temporary service employers, have similar profiles.13 In an August 2004 report, the
Government Accountability Office (GAO) noted that Treasury’s Inspector General for
Tax Administration estimated that, in TY 2000, over 250,000 illegal aliens had wage
statements with invalid SSNs.14

OBSTACLES HINDER SSA INITIATIVES TO REDUCE ITS VULNERABILITY TO SSN
MISUSE

Despite a number of initiatives to reduce SSA’s vulnerability to SSN misuse, significant
obstacles remain. SSA’s ability to combat SSN misuse is hampered because
employers do not routinely use EVS and we are not aware of instances where IRS has
imposed existing civil penalties against employers who submit inaccurate wage reports.
Furthermore, privacy and disclosure issues have limited collaborative efforts between
SSA and DHS.




11
  Obstacles to Reducing Social Security Number Misuse in the Agriculture Industry (A-08-99-41004),
January 2001.
12
     SSA Key Initiative Plan and Schedule: Reduce Earnings Suspense File (KI #46), March 15, 2001.
13
  Management Advisory Report: Review of Service Industry Employer with Wage Reporting Problems
(A-03-00-10022), September 2001.
14
   Tax Administration: IRS Needs to Consider Options for Revising Regulations to Increase the Accuracy
of Social Security Numbers on Wage Statements (GAO-04-712), August 2004.
Page 6 - The Commissioner


SSA Outreach to Employers

SSA has initiated several efforts to educate employers about the importance of accurate
wage reporting. SSA assists employers in verifying employees’ names and SSNs
through EVS. Employers can verify up to 5 names/SSNs by calling a toll-free telephone
number, or they can fax up to 50 names/SSNs directly to an SSA field office.
Employers who need to verify more than 50 names/SSNs can do so by submitting a list
of the names/SSNs to SSA, using a process called EVS for registered users. In
addition, SSA initiated the Social Security Number Verification Service (SSNVS) as a
pilot project in March 2002. This on-line service allows a small number of pre-selected
employers to verify employees’ names/SSNs using their personal computers.15 SSA
senior staff told us the Agency plans to make SSNVS available to all employers in 2005.

SSA also provides assistance to employers through its Employer Service Liaison
Officers (ESLO). SSA provides ESLOs in each of its regions nationwide to (1) answer
employers’ questions on wage reporting submissions; (2) encourage employers to use
SSA’s various programs, such as EVS; (3) conduct wage-reporting seminars, in
partnership with the IRS; and (4) contact employers with significant suspended wage
items in their regions.

To further assist SSA management in monitoring employer wage reporting, the Agency
is developing an Earnings Data Warehouse to provide trend information on employer
wage reporting. Knowing employer reporting trends could assist ESLOs in focusing
their outreach efforts.16

Employers Do Not Routinely Use EVS

SSA made EVS available to employers to assist them in verifying employee names and
SSNs with SSA records, thus reducing the incidents of incorrect wage reporting.
However, six of the nine employers we interviewed did not routinely use EVS. Some
employers stated they did not do so because SSA takes too long to respond to their
requests. One employer told us he does not use EVS because SSA does not require
that he do so. The six employers who stated they did not routinely use EVS
experienced increases in the percentage of suspended wage items for
TYs 1999 through 2001. In our September 2002 audit of the EVS system, we noted




15
  Under SSNVS, an employer can either key in up to 10 names/SSNs at a time for immediate verification
or submit a file containing the names/SSNs. The maximum number of SSNs allowed per file is
250,000. SSA provides a response to the employer the next business day.
16
  In our October 2004 report, Employers with the Most Suspended Wage Items in the 5-Year Period
1997 through 2001 (A-03-03-13048), we recommended SSA track employer trends in the Earnings Data
Warehouse, such as increases in the volume of wage items in suspense as well as the percent of an
employer’s payroll in the ESF.
Page 7 - The Commissioner


that, of the 6.5 million employers in the United States, only 392 employers/third-party
payroll companies used the EVS for registered users process between Calendar Years
1999 to 2001.17

We believe EVS is a useful tool for employers who are committed to improving the
accuracy of their wage reporting. For example, a temporary staffing company who
began using EVS in 2001 and SSNVS in 2003 experienced a significant decrease in the
percentage of suspended wage items. The employer’s Director of Human Resources
stated his company sent out directives to its corporate offices nationwide instructing
them not to refer individuals who did not have a valid SSN to a client company. Further,
he told us his company places posters in its corporate offices (in various languages) to
inform prospective employees that the company verifies applicants’ names/SSNs before
referral to a client company. The Director believes his company will continue to
experience decreases in the number of suspended wage items because of its use of
SSNVS and its commitment to only refer individuals who have valid SSNs.

The IRS Does Not Generally Penalize Employers

Because SSA has no legal authority to levy fines and penalties against employers who
submit inaccurate wage reports, it relies on the IRS to enforce penalties for inaccurate
wage reporting.18 In our January 2001 report on the agriculture industry (see
Appendix D), we noted that SSA senior staff did not believe employers had an incentive
to submit accurate annual wage reports because the IRS rarely enforced existing
penalties. SSA staff believed applying penalties would have a rippling effect on
employers who consistently misreported wage information and serve as a deterrent to
SSN misuse. Furthermore, SSA senior staff told us the Agency could provide the IRS
with sufficient evidence to show an employer knew or should have known its employees’
SSNs were incorrect. For example, a reasonable person should recognize it is not
feasible for hundreds of workers to have the same or consecutively numbered SSNs.

In our January 2001 report, we also noted that SSA and the IRS held discussions to
explore the enforcement of an existing penalty provision ($50 per error) for employers
who repeatedly submit erroneous name and/or SSN information. To implement the
penalty, SSA and the IRS agreed the Agencies must (1) jointly define the circumstances
for applying penalties, (2) identify information needed from SSA for the IRS to support
applying penalties, and (3) develop the proposed data flow and procedures to be
followed.

According to an August 2004 GAO report, the IRS can identify and penalize employers
who file wage statements with inaccurate SSNs but does not have a dedicated
compliance program for doing so.19 Additionally, GAO reported that IRS regulations
17
  The Social Security Administration’s Employee Verification Service for Registered Employers,
(A-03-02-22008), September 2002.
18
     Internal Revenue Code Section 6721.
19
   Tax Administration: IRS Needs to Consider Options for Revising Regulations to Increase the Accuracy
of Social Security Numbers on Wage Statements (GAO-04-712), August 2004.
Page 8 - The Commissioner


permit the IRS to waive potential penalties if employers demonstrate a “reasonable
cause” for the waiver.20 In its report, GAO opined that the IRS’ criteria for meeting the
waiver are such that few, if any, employers are likely to be penalized for submitting
inaccurate SSNs. In fact, GAO reported that the IRS could not provide any record that it
had penalized an employer for inaccurate wage reporting. GAO also noted that IRS
officials said they would consider changes, including requiring that employers verify
SSNs provided by employees, as part of the “egregious” employer study.21
Furthermore, GAO stated that, because the IRS believes some portion of inaccurate
SSNs on wage statements is attributable to illegal aliens using invalid SSNs, it would
likely consider the views of other potentially affected Federal agencies before changing
its penalty program.

In our October 2004 report on employers with the most items in the ESF,22 we noted
that the IRS reviewed the employee records at 78 “egregious” employers to determine
whether penalties should be assessed. Of the 78 employers, 50 were large employers
with a high number of ESF items, and the other 28 employers were smaller companies
with 93 percent or more of their payroll going into the ESF. In all 78 cases the IRS did
not see penalty potential because the employers (1) used the information from the IRS
Form W-4 (Employee’s Withholding Allowance Certificate) to prepare the W-2 and
(2) attempted to correct the W-2 information when SSA notified them that the
information did not match Agency records.

We acknowledge SSA’s efforts in working with the IRS to improve employer wage
reporting. However, until the IRS requires that egregious employers verify employees’
SSNs and holds them accountable for their actions through an effective employer
penalty program, we do not believe employer wage reporting will significantly improve.
We believe SSA could assist the IRS in its efforts to apply penalties by providing them
with sufficient evidence to show an employer knew, or should have known, its
employees’ SSNs were incorrect. Because SSA relies on the IRS to enforce penalties
for inaccurate wage reporting, we will provide Treasury’s Inspector General for Tax
Administration with a copy of this report under separate cover.




20
  The Tax Reform Act of 1986 (Public Law 99-514), the Omnibus Budget Reconciliation Act of 1989
(Public Law 101-239), and Internal Revenue Code Section 6724(a) authorizes a “reasonable cause
waiver.” To qualify for a “reasonable cause waiver,” employers must be able to demonstrate they
solicited an SSN from each employee one to three times, depending on the circumstances, and that they
used this information to complete the wage statements.
21
  For the purpose of this report, we defined “egregious” employers as those who filed large numbers or
percentages of wage statements with inaccurate SSNs repeatedly over several years. On March 10,
2004, Mark E. Everson, Commissioner of the IRS, presented testimony (Individual Taxpayer Identification
Numbers and Social Security Number Matching) before the House Ways and Means Subcommittee on
Oversight and Subcommittee on Social Security regarding IRS’ study of “egregious employers.”
22
  Employers with the Most Suspended Wage Items in the 5-Year Period 1997 through 2001
(A-03-03-13048), October 2004.
Page 9 - The Commissioner



Limited Collaboration Between SSA and DHS

In our January 2001 report regarding SSN misuse in the agriculture industry, we
reported that SSA and Immigration and Naturalization Service (INS)23 senior staff told
us collaboration between the two agencies had been limited. Although SSA recognized
that unauthorized noncitizens contributed to SSN misuse and ESF growth, the Agency
determined it could not share specific information with the INS regarding employers who
experience high name and SSN error rates because of privacy and disclosure laws.

We recommended that SSA (1) collaborate with the INS to develop a better
understanding of the extent immigration issues contribute to SSN misuse and growth of
the ESF and (2) reevaluate its application of existing disclosure laws or seek legislative
authority to remove barriers that would allow the Agency to share information regarding
chronic problem employers with INS. SSA disagreed and stated its interpretation of
privacy and disclosure issues is accurately applied and continues to provide sufficient
authority to share information with other agencies in situations that are consistent with
the purpose of the Social Security programs and SSA’s disclosure policies.

Although SSA continues to coordinate with DHS on immigration issues, it does not
routinely share information regarding egregious employers who submit inaccurate
SSNs. In our opinion, any serious plan to address SSN misuse and growth of the ESF
must allow SSA to share such information with DHS. We recognize SSA has no control
over immigration policy; however, we are concerned that social, political, and economic
issues associated with the enforcement of immigration laws impact SSA’s ability to
address SSN misuse. We believe SSA, Congress and other relevant stakeholders must
recognize that, until the issue of SSN misuse by unauthorized noncitizens is addressed,
the ESF will continue to grow. Accordingly, we encourage SSA to further this dialogue
and attempt to negotiate a coordinated strategy. Because we believe intentional misuse
of SSNs by unauthorized noncitizens has been a major contributor to the ESF’s growth,
we will provide a copy if this report under separate cover to the DHS Inspector General.

CONCLUSION AND RECOMMENDATIONS
We believe SSN misuse within the service, restaurant, and agriculture industries results
in millions of dollars in wages that SSA cannot post to workers’ earnings records. We
recognize no single agency can adequately combat this problem. However, given the
large number and/or percentage of wage statements employers submitted with
inaccurate SSNs and the nature of the reporting irregularities, we believe SSA should
take additional measures to ensure SSN integrity.

In previous reports, we made recommendations to help reduce the growth of the ESF.
The report titles are listed in Appendix D. We continue to support the recommendations
made in these reports and encourage SSA to continue its initiative to collaborate with

23
   On March 1, 2003, the responsibility for providing immigration-related services and benefits was
transferred from INS to the U.S. Citizenship and Immigration Services, a bureau of DHS.
Page 10 - The Commissioner


DHS to develop a better understanding of the extent that immigration issues contribute
to SSN misuse and growth of the ESF. Furthermore, we continue to believe SSA
should seek legislative authority to remove barriers that would allow the Agency to
share information regarding chronic problem employers with DHS. In addition to the
previously suggested actions, we recommend that SSA:

1. Continue to collaborate with IRS regarding wage reporting issues, including assisting
   the IRS in its development of an effective employer penalty program.

2. Encourage IRS to require employers who file large numbers or percentages of wage
   statements with inaccurate SSNs to verify employees’ SSNs.

AGENCY COMMENTS AND OIG RESPONSE

We believe SSA’s response and planned actions adequately address
Recommendation 1. However, we believe SSA’s response to Recommendation 2 does
not effectively address our concern that employers who consistently submit erroneous
or incorrect wage reports are not required to verify employees’ SSNs.

SSA disagreed with Recommendation 2. SSA stated it will continue to offer and
encourage all employers to use the free verification services for wage reporting.
Furthermore, SSA stated it will defer to IRS as to whether specific employers should be
required to use the verification services. While we acknowledge the IRS governs the
wage reporting process, we continue to believe SSA should encourage the IRS to
require employers who file large numbers or percentages of wage statements with
inaccurate SSNs to verify employees’ SSNs. As discussed in the report, the IRS is
considering requiring egregious employers to verify employees’ SSNs.

We did not intend to suggest that small companies who may occasionally submit a high
percentage of incorrect wage reports should be required to verify employee’s SSNs.
Rather, our intent was to encourage SSA to urge the IRS to require larger employers
Page 11 - The Commissioner



who consistently submit erroneous or incorrect wage reports to verify employee’ SSNs.
Until the IRS requires chronic problem employers to verify employees’ SSNs and holds
them accountable for their actions, we do not believe employer wage reporting will
significantly improve. Accordingly, we encourage SSA to reconsider its response to
Recommendation 2.

SSA also provided technical comments that we considered and incorporated, where
appropriate. The full text of SSA’s comments is included in Appendix E.




                                              S
                                              Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Analysis of Employers’ Earnings Suspense File Wage Items for Tax
             Years 1999-2001

APPENDIX D – Prior Office of the Inspector General and Government Accountability
             Office Reports

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
DHS     Department of Homeland Security
ESF     Earnings Suspense File
ESLO    Employer Service Liaison Officer
EVS     Employee Verification Service
GAO     Government Accountability Office
INS     Immigration and Naturalization Service
IRS     Internal Revenue Service
SSA     Social Security Administration
SSN     Social Security Number
SSNVS   Social Security Number Verification Service
TY      Tax Year
                                                                              Appendix B

Scope and Methodology
To accomplish our objective, we performed the following steps.
•   Reviewed Social Security Administration (SSA) policies and procedures and
    applicable federal laws and regulations regarding employer wage reporting.
•   Obtained Earnings Suspense File (ESF) data for Tax Years (TY) 1999 through
    2001 for all employers with at least 200 mismatched wage items.
•   Identified the top 100 employers in the service, restaurant, and agriculture industries
    (total of 300 employers) who contributed the most wages to the ESF for the 3-year
    period.
•   Calculated error rates for each employer by dividing the number of ESF wage items
    by the total number of W-2s submitted by the employer for each year and for the
    combined years.
•   Contacted nine employers and five industry associations to obtain information on
    their experiences with employees who provide names/Social Security numbers
    (SSN) that do not match SSA’s records. We limited our selection to employers and
    industry associations in California and Florida because these States account for a
    significant portion of the wage items posted to the ESF for the review period.
•   Analyzed ESF data for each of the 300 employers. Specifically, we categorized the
    ESF wage items for each of the 3 years to include the following reporting
    irregularities: unassigned, invalid and duplicate SSNs and SSNs belonging to young
    children (under age 13) and deceased individuals.
•   Reviewed prior SSA Office of the Inspector General and Government Accountability
    Office reports. See Appendix D for a list of the reports.

The SSA entity reviewed was the Office of Public Services and Operations Support
under the Deputy Commissioner for Operations and the Office of Earnings,
Enumeration and Administrative Systems under the Deputy Commissioner for Systems.
This audit did not include an evaluation of SSA’s internal controls over the wage
reporting process, nor did we attempt to establish the reliability or accuracy of the wage
data. However, we determined that ESF data are sufficiently reliable during a prior
review.1 We conducted our audit from May through September 2004 in accordance
with generally accepted government auditing standards.




1
 Performance Measure Review: Reliability of the Data Used to Measure the Accuracy of Earnings
Posted (A-03-00-10004), May 2001.
                                                                                    Appendix C

Analysis of Employers’ Earnings Suspense File
Wage Items for Tax Years 1999-2001
                                                              Industry
            Types of Reporting
                                     Service       Restaurant       Agriculture        Totals
                Irregularities
           Social Security
           Numbers (SSN) with
           All Zeros or with
           Zeros as the Area,
           Group or Serial
           Numbers                       7,715             9,936          12,618          30,269

           SSNs with All 9’s                 14            1,155               58          1,227
           SSNs with Area
           Number 666                      289               228              264            781
           SSNs with Area
           Numbers 773-999               4,997             9,294           1,263          15,554

           Unassigned SSNs1            285,071           222,600         124,212         631,883

           Valid SSNs Assigned
           to Young Children2            4,675             2,510           2,284           9,469
           Valid SSNs
           Assigned to
           Deceased Individuals          2,749             1,549           1,054           5,352
           Other Valid SSNs with
           Name Mismatches
                                       826,560           779,348         460,322       2,066,230

           Totals                    1,132,070         1,026,620         602,075       2,760,765




1
    This category includes SSNs that the Social Security Administration (SSA) has never assigned.
2
    This category includes SSNs that SSA assigned to children under age 13.
                                                                       Appendix D

Prior Office of the Inspector General and
Government Accountability Office Reports
    Report
 Identification                     Report Title                            Date
    Number                                                                 Issued
A-03-03-13048     Employers with the Most Suspended Wage               October 2004
                  Items in the 5-Year Period 1997 through 2001
GAO-04-712        Tax Administration: Internal Revenue Service         August 2004
                  Needs to Consider Options for Revising
                  Regulations to Increase the Accuracy of Social
                  Security Numbers on Wage Statements
A-03-03-13026     Follow-Up Review of Employers with the Most          October 2003
                  Suspended Wage Items
A-03-02-22008     The Social Security Administration’s Employee        September 2002
                  Verification Service for Registered Employers
A-03-01-11035     Effectiveness of the Social Security                 August 2002
                  Administration’s Earnings After Death Process
A-03-01-30035     Management Advisory Report: Recent Efforts to        May 2002
                  Reduce the Size and Growth of the Social
                  Security Administration’s Earnings Suspense
                  File
A-03-00-10022     Management Advisory Report: Review of                September 2001
                  Service Industry Employer with Wage Reporting
                  Problems
A-03-00-10004     Performance Measure Review: Reliability of the       May 2001
                  Data Used to Measure the Accuracy of Earnings
                  Posted
A-08-99-41004     Obstacles to Reducing Social Security Number         January 2001
                  Misuse in the Agricultural Industry
A-03-97-31003     The Social Security Administration’s Earnings        February 2000
                  Suspense File Tactical Plan and Efforts to
                  Reduce the File’s Growth and Size
A-03-98-31009     Patterns of Reporting Errors and Irregularities by   September 1999
                  100 Employers with the Most Suspended Wage
                  Items
                  Appendix E

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM                                                                        34124-24-1253


Date:      April 12, 2005                                                          Refer To: S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Larry W. Dye       /s/
           Chief of Staff

Subject:   Office of Inspector General (OIG) Draft Report, “Social Security Number Misuse in the Service,
           Restaurant, and Agriculture Industries” (A-08-05-25023)--INFORMATION

           We appreciate OIG's efforts in conducting this review. Our comments to the
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions may be referred to
           Candace Skurnik, Director of the Audit Management and Liaison Staff, at extension
           54636.

           Attachment:
           SSA Response




                                                      E-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SOCIAL SECURITY NUMBER MISUSE IN THE SERVICE,
RESTAURANT, AND AGRICULTURE INDUSTRIES” (A-08-05-25023)

Thank you for the opportunity to review and comment on the draft report. We note that
the Inspector General (IG) believes the Social Security Administration (SSA) should seek
legislative authority to remove barriers that would allow the Agency to share information
regarding chronic problems with the Department of Homeland Security (DHS), as
mentioned in the OIG’s 2001 report, “Obstacles to Reducing Social Security Number
Misuse in the Agriculture Industry.” The IG correctly notes that currently there are
privacy and disclosure laws that prohibit SSA from sharing such tax return information
with agencies other than the Internal Revenue Service (IRS).

SSA will continue to work with IRS regarding wage reporting issues; however, it is
beyond our purview to advance legislation to amend the Internal Revenue Code in order
to allow DHS access to tax return information.

Recommendation 1

SSA should continue to collaborate with IRS regarding wage reporting issues, including
assisting the IRS in its development of an effective employer penalty program.

Comment

We agree. SSA will continue to collaborate with IRS regarding wage reporting issues,
including assisting IRS in its efforts to improve the employer penalty program (if and
when IRS chooses to modify its existing program).

SSA has had an interagency effort in place with IRS since 2004 to collaborate on issues
of mutual concern. Since SSA has no legal authority to levy fines and penalties for
inaccurate wage reporting, we must rely on IRS to do so.

We continue to encourage IRS to require employers who file large numbers of wage
statements with inaccurate Social Security numbers (SSNs) to verify employees' SSNs by
using SSA's Employee Verification Service (EVS). We believe that this process will
improve the accuracy of our earnings records and limit the growth of the Earnings
Suspense File.

Recommendation 2

SSA should encourage IRS to require employers who file large numbers or percentages
of wage statements with inaccurate SSNs to verify employees’ SSNs.




                                          E-2
Comment

We disagree. Both SSA and IRS struggle with the issue of wage statements with
inaccurate SSNs. In many cases, the employers are simply reporting the best information
they have in their records. Furthermore, in the selected industries, turnover is very high
and employment is for only short periods of time. Many of these workers move on to
other jobs prior to the employer recognizing the inaccurate information. SSA's
verification services are valuable tools for improving wage reporting and SSA will
continue to offer and encourage all employers to use the free verification services for
wage reporting purposes. However, since the wage reporting process is ultimately
governed by IRS, we defer to IRS as to whether specific employers should be required to
use the verification services.




                                           E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606

Acknowledgments

In addition to those named above:

   Cliff McMillan, Senior Auditor

   Susan Phillips, Auditor

   Kim Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-08-05-25023.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
